No. 20-5068
IN THE SUPREME COURT OF THE UNITED STATES
Li Qin Petitioner in Pro Per
vs.
Barbara Kong-Brown et al. Respondents
CERTIFICATE OF COMPLIANCE
I, Li Qin, Petitioner in pro per, hereby certify that, according to the wordcount tool in Microsoft Word, my [Petition for Rehearing] consists 1011 words
and 3 pages that was compliant with Rule 33. 1 (f) and Rule 34. 2.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on Nov 13, 2020.
Petitioner Li Qin in pro per
CERTIFICATE OF PETITIONER IN PRO PER
(Pursuant Rule 44 Rehearing 1. & 2.)
I hereby certify that this petition for rehearing is presented in good faith
and not for delay, and the grounds are limited to intervening circumstances of
substantial or controlling effect or to other substantial ground not previously
presented.
Petitioner Li Qin in pro per
Date: Nov 13, 2020

Certificates of [Petition for Rehearing]

